Case No. 21-

In the Supreme Court of the United States
October Term 2021
____________________________
RANCHERS-CATTLEMEN ACTION LEGAL FUND, UNITED
STOCKGROWERS OF AMERICA,
Applicant-Petitioner,
v.
THOMAS VILSACK, in his official capacity as Secretary of Agriculture, and THE
UNITED STATES DEPARTMENT OF AGRICULTURE,
Respondents,
MONTANA BEEF COUNCIL; NEBRASKA BEEF COUNCIL;
PENNSYLVANIA BEEF COUNCIL; TEXAS BEEF COUNCIL; LEE
CORNWELL; GENE CURRY; WALTER J. TAYLOR, Jr.,
Intervenor-Respondents.
__________________________
Application for an Extension of Time Within Which to File a Petition for a Writ of
Certiorari to the Ninth Circuit, Presented to Circuit Justice Elena Kagan
___________________________________________________
Jessica Culpeper
Counsel of Record
David S. Muraskin
Public Justice, P.C.
1620 L St. NW, Suite 630
Washington, DC 20036
(202) 861-8600
jculpepper@publicjustice.net
Counsel for Applicant-Petitioner

CORPORATE DISCLOSURE STATEMENT
Applicant the Ranchers-Cattlemen Action Legal Fund, United Stockgrowers
of America, has no parent corporations and issues no stock.

APPLICATION FOR AN EXTENSION OF TIME
Pursuant to Rule 13.5 of the Rules of this Court, Applicant, who was
Plaintiff below and would-be Petitioner before this Court, Ranchers Cattlemen
Action Legal Fund, United Stockgrowers of America, hereby requests a 60-day
extension of time within which to file a petition for a writ of certiorari, allowing it
to file up to and including Friday, December 24, 2021.

JUDGMENT FOR WHICH REVIEW IS SOUGHT
The judgment for which review is sought is Ranchers Cattlemen Action
Legal Fund, United Stockgrowers of America v. Vilsack, 6 F.4th 983 (9th Cir.
2021) (attached as Exhibit A), which was issued on July 27, 2021.

JURISDICTION
This Court will have jurisdiction over any timely filed petition for certiorari
in this case pursuant to 28 U.S.C. § 1254(1). The judgment for which review will
1

be sought was issued on July 27, 2021. Under Rules 13.1, 13.3, and 30.1 of the
Rules of this Court, a petition for a writ of certiorari was due to be filed on or
before October 25, 2021. In accordance with Rule 13.5, this application is being
filed more than 10 days in advance of the filing date for the petition for a writ of
certiorari.
REASONS JUSTIFYING AN EXTENSION OF TIME
Applicant respectfully requests a 60-day extension of time within which to
file a petition for a writ of certiorari seeking review of the decision of the Ninth
Circuit in this case; that is up to and including Friday, December 24, 2021. In
support of this request, Applicant states:
1.

Lead counsel below, who will also be lead counsel in preparing any

writ of certiorari, has been subject to a number of unanticipated court ordered
deadlines that prevent the writ request from being completed within the current
deadline. In particular, subsequent to the Ninth Circuit decision in this case: the
Fourth Circuit scheduled oral argument for lead counsel in another matter, People
for the Ethical Treatment of Animals v. North Carolina Farm Bureau, No. 20-1766
(L), for the same week that the writ request would be due; the D.C. Court of
Appeals reversed and remanded Animal Legal Defense Fund v. Hormel Foods
Corp., No. 19-CV-0397, --- A.3d---, 2021 WL 3921512 (D.C. Sept. 2, 2021),
2

resulting in lead counsel needing to prepare for a court conference the week before
the writ request in this matter would be due; and the Eighth and Tenth Circuits
issued decisions in Animal Legal Defense Fund v. Vaught, 8 F.4th 714 (8th Cir.
2021); Animal Legal Defense Fund v. Reynolds, 8 F.4th 781 (8th Cir. 2021);
Animal Legal Defense Fund v. Kelly, 9 F.4th 1219 (10th Cir. 2021), requiring lead
counsel to work on next steps in those matters.
2.

Moreover, in order to present this Court with the best developed

petition for writ of certiorari, lead counsel and Applicant have also been consulting
with issue experts and potentially impacted parties regarding the important issues
presented by the opinion below—the “government speech” exception to the First
Amendment and its application to the federal “checkoff programs,” which compel
funding for speech. Scheduling and follow-up from those meetings has delayed
finalizing the writ of certiorari.
CONCLUSION
For the foregoing reasons, Applicant respectfully requests a 60-day
extension of time within which to file a petition for a writ of certiorari seeking
review of the decision of the Ninth Circuit in this case, which is up to and includes
Friday, December 24, 2021.

3

October 7, 2021

Respectfully submitted,
/s/ Jessica Culpepper
Jessica Culpepper
Counsel of Record
David S. Muraskin
Public Justice, P.C.
1620 L St. NW, Suite 630
Washington, DC 20036
(202) 861-8600
jculpepper@publicjustice.net
Counsel for Applicant

4

